                                                          NATIONAL SCIENCE FOUNDATION
                                                           OFFICE OF INSPECTOR GENERAL

      .                                                     OFFICE OF INVESTIGATIONS

       o                                           CLOSEOUT MEMORANDUM

     Case Number: A03110060
                                                                                               I               Page 1 of 1



                   In the course of a review of program income and expenditures under selected conference
           grants, we requested records from an institution' for expenditures under an NSF award.2 The award
           totaled $1 15,500 for students and researchers to attend two conferences in a Latin American country
           in 2001. The conferences were put on by an institution located in the host country, not by the
           grantee, so the grantee earned no program income. The records provided by the grantee appeared to
           support the costs claimed for travel expenses related to the conference^.^ Accordingly, this case is
           closed.




           1

           2
           3

           as "Financially Closed," which had the effect of making the remaining $2,983.93 available to NSF.


II
 NSF OIG Form 2 (1 1/02)
